Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    PENNSYLVANIA CLAIMED
   UNALLOWABLE MEDICAID
    ADMINISTRATIVE COSTS
  FOR THE REGIONAL HOUSING
   COORDINATOR INITIATIVE


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      December 2012
                                                      A-03-11-00210
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public Welfare
(State agency) administers the Medicaid program.

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be “for the proper and efficient administration of the State
plan.” In a December 1994 letter to State Medicaid directors, CMS (formerly the Health Care
Financing Administration) clarified its position on State claims for administrative costs, stating
that “allowable claims … must be directly related to the administration of the Medicaid
program.” In State fiscal year 2010–2011, the State agency claimed $924 million in Medicaid
administrative costs, of which $654 million was claimed as “Other Financial Participation.” This
is the fifth report to address States’ claims for Medicaid administrative costs claimed as Other
Financial Participation.

Section 1915(c) of the Act permits States to seek a waiver from their State plans to furnish an
array of services that assist Medicaid beneficiaries to live in the community and avoid
institutionalization. Pennsylvania’s eleven 1915(c) waivers provide home and community-based
services that allow eligible beneficiaries in need of nursing-home-level care to remain in their
homes and to transition back into the community from nursing homes.

The Regional Housing Coordinator Initiative (Initiative) provides services that facilitate access
to housing options for individuals with disabilities. Through its regional offices, the Initiative’s
housing coordinators provide information, referrals, training, and technical assistance to the State
agencies, the local Area Agencies on Aging, and other organizations and stakeholders assisting
individuals, including Medicaid beneficiaries, transitioning to a community-based setting.

From July 2008 through December 2011, the State agency claimed $1,986,322 (Federal share) of
the Initiative’s costs as Medicaid administrative costs.

OBJECTIVE

Our objective was to determine whether the State agency complied with Federal requirements
when it claimed Medicaid administrative costs for the Initiative.




                                                 i
SUMMARY OF FINDING

The State agency did not comply with Federal requirements when it claimed $1,986,322 (Federal
share) of administrative costs for the Initiative. The claimed costs represented indirect support
services to facilitate access to housing options to individuals with disabilities. Initiative services
may have assisted in reducing the barriers for placing individuals in community-based settings,
allowing them to receive benefits under a Medicaid waiver program; however, these services did
not directly relate to the administration of Medicaid services under the waivers. Accordingly, the
State agency’s claims totaling $1,986,322 (Federal share) for the Initiative were unallowable.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,986,322 in Federal funds for unallowable Initiative costs,

   •   refund the Federal share of unallowable Initiative costs claimed after our audit period,
       and

   •   discontinue all future claims of Initiative costs.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency said that technical assistance
provided by the Initiative was a critical component of rebalancing the long-term-care system, as
housing serves as the top barrier in transitioning consumers from nursing homes to the
community. The State agency said it therefore believed that the Initiative’s activities were
directly related to the administration of the Medicaid program and should be an allowable
administrative cost.

OFFICE OF INSPECTOR GENERAL RESPONSE

As described in our report, the Initiative provides information, referrals, training, and technical
assistance to support Pennsylvania’s housing programs, including programs that provide housing
services to Medicaid beneficiaries transitioning to waiver programs. These services were not
directly related to the administration of the Medicaid program. Rather, they were unallowable
indirect services. Nothing in the State agency’s comments caused us to change our
recommendations.




                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Pennsylvania’s Home and Community-Based Waivers ..............................1
              Pennsylvania Regional Housing Coordinator Initiative ..............................1
              Audits of States’ Medicaid Administrative Costs........................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ...........................................................................................................2
               Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS .......................................................................3

          FEDERAL REQUIREMENTS ................................................................................3

          UNALLOWABLE INITIATIVE COSTS CLAIMED ............................................4

          RECOMMENDATIONS .........................................................................................4

          STATE AGENCY COMMENTS ............................................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................4

APPENDIXES

          A: PREVIOUSLY ISSUED REPORTS RELATED TO THIS AUDIT

          B: STATE AGENCY COMMENTS




                                                                   iii
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public Welfare
(State agency) administers the Medicaid program.

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. These costs must be “for the proper and efficient administration of the State
plan.” In a December 1994 letter to State Medicaid directors, CMS (formerly the Health Care
Financing Administration) clarified its position on State claims for administrative costs, stating
that “allowable claims … must be directly related to the administration of the Medicaid
program.” CMS’s letter provided a list of allowable administrative activities, but it was not all
inclusive. Most Medicaid administrative costs are reimbursed at the 50-percent rate
(section 1903(a)(7) of the Act). States claim medical assistance and administrative costs on
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (Form CMS-64).

Pennsylvania’s Home and Community-Based Waivers

Section 1915(c) of the Act permits States to seek a waiver from their State plans to furnish an
array of services that assist Medicaid beneficiaries to live in the community and avoid
institutionalization. States have broad discretion to design waiver programs to address the needs
of target populations.

Pennsylvania has eleven 1915(c) home and community-based waivers (waivers) providing
services that allow eligible beneficiaries in need of nursing-home-level care to remain in their
homes and to transition back into the community from nursing homes. Within the State agency,
the Office of Long-Term Living 1 contracts with 52 local Area Agencies on Aging for daily
management of services provided under the waivers.

Pennsylvania Regional Housing Coordinator Initiative

The Regional Housing Coordinator Initiative (Initiative) is administered by the Pennsylvania
Housing Finance Agency (Pennsylvania Housing) in collaboration with Pennsylvania’s Office of
Long-Term Living. The Initiative provides services for various State programs that facilitate

1
    The State agency and the Pennsylvania Department of Aging share oversight of the Office of Long-Term Living.


                                                         1
access to housing options for individuals with disabilities. Through its regional offices, the
Initiative’s housing coordinators provide information, referrals, training, and technical assistance
to the State agencies, the local Area Agencies on Aging, and other organizations and stakeholders
assisting individuals, including Medicaid beneficiaries, transitioning to a community-based
setting.

The Initiative contracts with The Self-Determination Housing Project, a statewide nonprofit
agency in Downingtown, Pennsylvania, to coordinate housing services in 10 of its 11 regional
offices. The Philadelphia Housing Authority, a municipal agency, provides housing services in
the Philadelphia region. During our audit period, the initiative also used the consulting services
of the Rackham Group. 2

Audits of States’ Medicaid Administrative Costs

In State fiscal year 2010–2011, the State agency claimed $924 million in Medicaid
administrative costs, of which $654 million was claimed as “Other Financial Participation.” This
is the fifth report to address States’ claims for Medicaid administrative costs claimed as Other
Financial Participation. Appendix A lists the first four reports, which identified programs for
which States inappropriately claimed administrative costs as “Other Financial Participation.”

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency complied with Federal requirements
when it claimed Medicaid administrative costs for the Initiative.

Scope

We reviewed $1,986,322 (Federal share) of the Initiative’s costs that the State agency claimed
from July 2008 through December 2011. We did not review the overall internal control structure
of the State agency. We limited our review to those controls related to the State agency’s
methodology for claiming Initiative expenditures.

We performed our fieldwork at the State agency in Harrisburg, Pennsylvania, and the Self-
Determination Housing Project in Downingtown, Pennsylvania, in October 2011.

Methodology

To accomplish our objective, we:

      •    reviewed relevant criteria, including the Act, Federal Medicaid regulations, CMS letters
           to State Medicaid directors, and the Medicaid State plan and waivers;


2
    The Rackham Group is a private entity in Cranberry Township, Pennsylvania, with expertise in housing issues.


                                                          2
    •   interviewed State agency officials, Pennsylvania Housing officials, and Self-
        Determination Housing Project officials to gain an understanding of the Initiative;

    •   reconciled State agency accounting records that supported its Form CMS-64 claims with
        Initiative expenditures;

    •   reviewed the State agency’s Memorandum of Understanding with Pennsylvania Housing
        that defines the oversight responsibilities of Pennsylvania Housing and the Office of
        Long-Term Living in administering the Initiative and identifies the activities of the Self-
        Determination Housing Project, Philadelphia Housing Authority, and the Rackham
        Group; and

    •   discussed our findings with officials from CMS, the State agency, and Pennsylvania
        Housing.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                              FINDING AND RECOMMENDATIONS

The State agency did not comply with Federal requirements when it claimed $1,986,322 (Federal
share) of administrative costs for the Initiative. The claimed costs represented indirect support
services to facilitate access to housing options to individuals with disabilities. Initiative services
may have assisted in reducing the barriers for placing individuals in community-based settings,
allowing them to receive benefits under a Medicaid waiver program; however, these services did
not directly relate to the administration of Medicaid services under the waivers. Accordingly, the
State agency’s claims totaling $1,986,322 (Federal share) for the Initiative were unallowable.

FEDERAL REQUIREMENTS

Section 1903(a) of the Act permits States to claim Federal reimbursement for Medicaid
administrative costs. Federal cost principles state that, for administrative costs to be allowable,
they must be necessary and reasonable for the proper and efficient administration of the
Medicaid program, be allocable to Federal awards, and be adequately documented
(2 CFR part 225, App. A, § C.1). 3 Section C.3.a of the cost principles specifies that “a cost is
allocable to a particular cost objective if the goods or services involved are chargeable or
assignable to such cost objective in accordance with relative benefits received.”

CMS guidance issued in a December 1994 letter to State Medicaid directors (Number 122094)
clarified its policy concerning State claims for administrative costs. CMS stated that “[w]e have
consistently held that allowable claims under this authority must be directly related to the
3
 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, was relocated to 2 CFR
part 225.

                                                       3
administration of the Medicaid program.” CMS’s letter also provided a list of allowable
administrative activities, but it was not all inclusive. CMS did state that “an allowable
administrative cost must be directly related to Medicaid State plan or waiver services.”
(Emphasis added.)

UNALLOWABLE INITIATIVE COSTS CLAIMED

The State agency’s claims did not reflect administrative costs as defined in the Act and later
clarified by CMS in its letter to State Medicaid directors. The claimed costs represented indirect
support services to facilitate access to housing options for individuals with disabilities. The
Initiative provided information, referrals, training, and technical assistance to support
Pennsylvania’s housing programs, including programs that provide housing services to Medicaid
beneficiaries transitioning to waiver programs. However, Initiative costs are not directly related
to the administration of any of the waivers. The indirect services may have assisted in reducing
the barriers for placing individuals in community-based settings, allowing them to receive
benefits under a Medicaid waiver program; however, these services did not provide direct
administrative support to Medicaid services. Therefore, for the period July 1, 2008, through
December 31, 2011, the State agency improperly claimed $1,986,322 (Federal share) in
Medicaid administrative costs for the Initiative.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $1,986,322 in Federal funds for unallowable Initiative costs,

   •   refund the Federal share of unallowable Initiative costs claimed after our audit period,
       and

   •   discontinue all future claims of Initiative costs.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency said that technical assistance
provided by the Initiative was a critical component of rebalancing the long-term-care system, as
housing serves as the top barrier in transitioning consumers from nursing homes to the
community. The State agency said it therefore believed that the Initiative’s activities were
directly related to the administration of the Medicaid program and should be an allowable
administrative cost.

The State agency’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

As described in our report, the Initiative provided information, referrals, training, and technical
assistance to support Pennsylvania’s housing programs, including programs that provide housing

                                                  4
services to Medicaid beneficiaries transitioning to waiver programs. These services were not
directly related to the administration of the Medicaid program. Rather, they were unallowable
indirect services. Nothing in the State agency’s comments caused us to change our
recommendations.




                                               5
APPENDIXES
    APPENDIX A: PREVIOUSLY ISSUED REPORTS RELATED TO THIS AUDIT

Review of Medicaid Administrative Costs Claimed for the Pennsylvania Department of Aging’s
Healthy Steps Program (A-03-10-00205, issued July 13, 2011).

Review of Medicaid Administrative Costs Claimed for the Pennsylvania Department of Aging’s
Direct Care Worker Initiative (A-03-10-00206, issued July 14, 2011).

Pennsylvania Claimed Medicaid Administrative Costs for Provider Training Under Its Restraint
Reduction Initiative (A-03-11-00209, issued July 24, 2012).

Maryland Claimed Medicaid Administrative Costs for Unallowable Remedial and Training
Services for the Maryland Poison Center (A-03-12-00204, issued September 27, 2012).
                                                                                                           Page 10f2
                       APPENDIX B: STATE AGENCY COMMENTS 





                                    COMMONWEALTH OF PENNSYLVANIA 

                                  DEPUTY SECRETARY FOR ADMINISTRATION 


                                             October 19, 2012


Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health & Human Services Office
of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 South Independence Mall West
Philadelphia, Pennsylvania 19106

Dear Mr. Virbitsky:

       The Department of Public Welfare (DPW) has received the draft report number
A-03-11-00210 titled, "Pennsylvania Claimed Unallowable Medicaid Administrative
Costs for the Regional Housing Coordinator Initiative". The objective of this audit was to
determine whether Pennsylvania complied with Federal requirements when it claimed
Medicaid administrative costs for the Regional Housing Coordinator Initiative.

Office of Inspector General (OIG) Recommendation: We recommend that the State
agency refund $1,986,322 in Federal funds for unallowable Initiative costs, refund the
Federal share of unallowable Initiative costs claimed after our audit period, and
discontinue all future claims of Initiative costs.

Department of Public Welfare (DPW) Response: The purpose of the Regional
Housing Coordinator Initiative is to create a bridge between the Medicaid home and
community based waiver programs and the housing sector throughout the
Commonwealth. Five Regional Housing Coordinators (RHC) work with state agencies,
organizations, housing professionals, and others to facilitate access to housing options
and opportunities for people with disabilities and for consumers residing in nursing homes
who wish to live in the community.

Technical assistance provided through this initiative to the Nursing Home Transition
(NHT) coordinators and the Area Agencies on Aging (AAAs) is a critical component of
rebalancing the Commonwealth's long term care system as housing serves as the top
barrier in transitioning consumers back into the community.

Transitioning these consumers back into the community ultimately results in decreased
nursing home utilization, which results in both Federal and State budgetary savings.




                                      DEPARTMENT OF PUBLIC WELFARE
            P.O. BOX 2675 I HARRISBURG. PA 17105 I 717.7B7.3422 I Fax 717.772.2490 I www.dpw.state.pa.us
                                                                                 Page 2 of2
 Mr. Steven Virbitsky                     -2­


 The Department of Public Welfare continues to believe these activities are directly
 related to the administration of the Medicaid program in particular the Nursing Home
 Transition program and are thereby allowable. This initiative, since its inception, has
 increased the availability of housing options for Pennsylvania consumers and continues
 to be a critical component of NHT and rebalancing the long term living system in the
 Commonwealth.

        Thank you for the opportunity to respond to this draft audit report. If you have
 questions or concerns regarding this response, please contact David R. Bryan , Audit
 Resolution Section, at (717) 783-7217 or via email at davbryan@pa.gov.

                                         Sincerely,


                                    C~D~~-l~~'
                                         Karen K. Deklinski
                                         Deputy Secretary for Administration

cc:    Mr. Robert Baiocco, Audit Manager
